No. 20-1279

 

 

In THE
Supreme Court of the Anited States

ANGELICA CASTANON, ET AL.,
Appellants,
Vv.

UNITED STATES OF AMERICA, ET AL.,
Appellees.

On Appeal from the
United States District Court
for the District of Columbia

BRIEF FOR AMICUS CURIAE THE UNITED
STATES HOUSE OF REPRESENTATIVES
IN SUPPORT OF APPELLANTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,981 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 14, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
